APPENDICES

Case: 19-2522

Document: 25

Filed: 02/19/2020

Pages: 22

In the

United States Court of Appeals
For the Seventh Circuit
____________________
No. 19-2522
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
DAVID A. BRIDGEWATER,
Defendant-Appellant.
____________________
Appeal from the United States District Court for the
Southern District of Illinois.
No. 19-cr-40012 — Staci M. Yandle, Judge.

____________________
ARGUED JANUARY 16, 2020 — DECIDED FEBRUARY 19, 2020
____________________
Before FLAUM, MANION, and KANNE, Circuit Judges.
FLAUM, Circuit Judge. David Bridgewater pleaded guilty to
one count of soliciting an obscene visual depiction of a minor
in violation of 18 U.S.C. § 2252A(a)(3)(B)(i). Federal law required a mandatory-minimum Guidelines sentence of 60
months in prison. The district court deviated from the Guidelines to 78 months to account for a charge of attempted enticement of a minor that the government dismissed in exchange
for his guilty plea. That conduct, the court found, aggravated

1a

Case: 19-2522

Document: 25

Filed: 02/19/2020

2

Pages: 22

No. 19-2522

the nature and circumstances of the oﬀense of conviction. The
court therefore sentenced above the Guidelines range to holistically address Bridgewater and his crime in a way the mandatory-minimum Guidelines range did not. Bridgewater now
appeals his sentence, principally arguing that it is substantively unreasonable because basing it—even in part—on dismissed conduct creates systemwide disparity. We aﬃrm.
I. Background
In January 2019, David Bridgewater contacted a boy who
he thought was named “Stephen” on Grindr, an online dating
application. Stephen, however, was really an undercover FBI
agent participating in a sting operation. The following federal
child exploitation investigation and prosecution ensued.
A. Investigation
After exchanging some initial messages, Stephen identiﬁed himself as a ﬁfteen-year-old boy from Marion, Illinois.
Bridgewater described himself as a forty-ﬁve-year-old man
who lived in Anna, Illinois. Quickly, Bridgewater shifted the
conversation to sexual matters and asked Stephen if he was
circumcised. He also asked Stephen to send him a picture to
prove he was real. The two then agreed to text via the Google
voice application.
During the subsequent encounter, Stephen sent a purported picture of himself, to which Bridgewater replied: “[explicative] you are cute.” Bridgewater told Stephen he wanted
to make out and perform oral sex on him. Stephen said he
would prefer “oral and hands ﬁrst,” and Bridgewater agreed,
on the condition that he could “see it and touch [Stephen’s]
butt.” Bridgewater questioned Stephen whether he was real
or not, inquiring: “You’re not an undercover cop or detective

2a

Case: 19-2522

No. 19-2522

Document: 25

Filed: 02/19/2020

Pages: 22

3

or law enforcement?” Stephen assured Bridgewater he was
not a police oﬃcer, and the two switched to talking about Stephen’s living arrangements, hobbies, and interests. Bridgewater asked if Stephen would send him a “sneak peak,” requesting a picture of his “tummy and pubic area” and penis.
They agreed to carry on their conversation and meet in person
the following day.
As the two exchanged messages the next day, they discussed meeting at a McDonald’s in Marion after Stephen got
out of school. Bridgewater asked Stephen to call him when he
was on his way to meet him. Later that afternoon, Stephen
texted Bridgewater to tell him he was en route to the McDonald’s, and Bridgewater noted that he would be there in several
minutes. Upon Bridgewater’s arrival, he texted Stephen that
he was parked behind the McDonald’s. When agents approached Bridgewater in his vehicle, he saw them and drove
away from the parking lot. The agents followed Bridgewater
and executed a traﬃc stop.
The agents asked Bridgewater if he would talk to them
and he agreed. Bridgewater admitted that he had met Stephen
on Grindr the previous day and that he had traveled to Marion to meet him. Bridgewater denied meeting Stephen for sex,
although he agreed he had given Stephen that impression and
it would certainly appear that way to anyone else. Bridgewater also admitted that Stephen had told him he was ﬁfteen
and that he had sent pictures of himself to Stephen. Bridgewater insisted that he was not going to perform oral sex on
Stephen but was instead going to counsel him regarding his
risky behavior. When questioned about the ongoing sexual
nature of the communications, Bridgewater stated he only
continued this way to “keep the conversation going.” When

3a

Case: 19-2522

Document: 25

4

Filed: 02/19/2020

Pages: 22

No. 19-2522

asked, Bridgewater conceded that he was worried Stephen
was an undercover police oﬃcer. The agents seized Bridgewater’s cell phone and released him pending further investigation.
B. Prosecution
In nearly two weeks’ time, the government charged
Bridgewater with one count of attempted enticement of a minor in violation of 18 U.S.C. § 2422(b) and one count of soliciting an obscene visual depiction of a minor in violation of
18 U.S.C. § 2252A(a)(3)(B). Approximately a week later,
agents arrested Bridgewater.
After his arrest, the agents confronted Bridgewater with
information recovered from his phone, including what appeared to be a thirty-second video of a thirteen to sixteenyear-old male with his genitals exposed. Bridgewater denied
ever viewing the video and told the agents that he did not
know where it came from. The agents also questioned Bridgewater about a picture they found on his phone of a nude male
who appeared underage. Bridgewater identiﬁed the individual as “Eli” but said he did not know his last name. Bridgewater said he believed Eli was eighteen years old and that
they had exchanged nude photographs in the past. Bridgewater also asserted that he was not sexually attracted to minors.
Bridgewater eventually pleaded guilty to one count of soliciting an obscene visual depiction of a minor. The parties entered into a plea agreement wherein Bridgewater waived his
appeal rights except for his right to challenge the substantive
reasonableness of a sentence that “is in excess of the Sentencing Guidelines as determined by the Court (or any applicable

4a

Case: 19-2522

Document: 25

Filed: 02/19/2020

Pages: 22

No. 19-2522

5

statutory minimum, whichever is greater).” The district court
accepted Bridgewater’s guilty plea, and the parties prepared
for sentencing.
C. Sentencing
At sentencing, the district court adopted the factual ﬁndings and Guidelines calculations contained in the Presentence
Investigation Report (PSR) prepared by a federal probation
oﬃcer. Those included determinations that Bridgewater’s offense level was twenty-one and his criminal history category
was I. Ordinarily, the court noted, a level 21-I oﬀender would
have a Guidelines range of 37–46 months imprisonment but
because of the 60-month mandatory minimum sentence,
Bridgewater’s Guidelines range was 60 months. Both the government and Bridgewater recommended a sentence of 60
months. The district court disagreed and imposed a 78-month
sentence.
The district court thoroughly explained its reasoning for
imposing an above-Guidelines sentence, indicating that its
sentence took into consideration the dismissed charge of attempted enticement of a minor. As the court stated:
Soliciting an obscene visual depiction of a minor. That
is the charge. And there is a statutory minimum sentence that is required for that charge of ﬁve years, or 60
months. It is more than the actual calculated guideline
range based on all of the other factors in the sentencing
guidelines. Many times, if not most times, I have found
statutory minimums and certainly sometimes maximum that have been imposed by Congress, and not - most of them or some of them not related to any em-

5a

Case: 19-2522

6

Document: 25

Filed: 02/19/2020

Pages: 22

No. 19-2522
pirical study by the Sentencing Commission to be unduly harsh and not consistent with the Section 3553(a)
factors and the purposes of sentencing. That is normally my judgment. But that’s not my judgment in this
case. And the reason it’s not my judgment in this case
is because the speciﬁc oﬀense conduct underlying the
solicitation of a visual depiction of a minor is that you
made contact with someone who you believed to be a
15-year-old male and, after a little conversation or a
back-and-forth, you asked him to send a picture, and
that a picture in fact was sent. That pretty much is the
basis for the charge that you pleaded guilty to.
And if that were all that happened, if that were the only
-- if those were the only relevant facts to the statutory
factors and to the purposes of sentencing then I would
feel that the statutory minimum was either appropriate
or could -- and may actually be more than I thought
was appropriate.
The problem is, Mr. Bridgewater, your conduct went
beyond that, and I cannot bury my head in the sand
and uphold my responsibility to consider the relevant
information that impacts the purposes of sentencing.
There is uncharged conduct, or conduct involving a
count that was dismissed in this case, that although
that count was dismissed, the underlying information
in the oﬀense conduct is detailed in the Presentence Investigation Report. It is reliable, as set forth in the
Presentence Investigation Report, and it has not been
disputed. And I believe that, as a result, it’s been established by a preponderance of the evidence -- in other
words, I ﬁnd that the details set forth in paragraphs 10,

6a

Case: 19-2522

Document: 25

Filed: 02/19/2020

Pages: 22

No. 19-2522

7

11, and 12 that encompass what your total conduct
was, occurred more likely than not likely. And because
of that, to the extent that it impacts the nature and circumstances of the oﬀense and, as a result, impacts the
purposes of sentencing, I think it is signiﬁcant and I am
considering it. And I have to consider it, and that is
what I am considering.
I think – and not that I think – both the Supreme Court
of the United States and the Seventh Circuit Court have
held that it is appropriate for me to do so. The Supreme
Court in the United States Versus Watts case, and the
Seventh Circuit, had a chance to reconsider the same in
2017 in a case which was also a case in which I sentenced in this District Court, United States versus Holton.
And basically, under those two cases, what they represent is that the Supreme Court has authorized judges
to consider at sentencing criminal conduct that is relevant to the oﬀense of conviction, as long as that conduct has been proved by a preponderance of the evidence. And that exercising this discretion does not violate a defendant’s constitutional rights because – and
this is the important distinction – sentencing enhancements do not punish a defendant for crimes of which
he was not convicted, but rather increases sentence because of the manner in which he committed the crime
and conviction.
It is the manner in which you committed the crime of
conviction, Mr. Bridgewater, that merits and warrants
a sentence above the statutory minimum in this case.
The manner in which you committed the crime and
those factors are detailed in paragraphs 10, 11, and 12

7a

Case: 19-2522

8

Document: 25

Filed: 02/19/2020

Pages: 22

No. 19-2522
of the Presentence Investigation Report. And because
that is a sealed report, I do not believe it is necessary
for me to detail that and read those paragraphs out. But
the parties have that information.
And that manner of the criminal conduct and those details of the sequence of events, which essentially
amount to your attempted enticement of a minor and
informing that minor of your sexual intentions, and
then travelling to Marion, Illinois, to meet that minor
and to carry out those intentions are aggravating factors that are not accounted for not only in the calculated guideline range but even the statutory minimum,
in my judgment.
And that is true even in light of admitted mitigating
factors which I have also considered, and those include: No criminal history in the past; those include
factors in your upbringing that I think do have bearing
on the purposes of sentencing and perhaps what
brought you to this point; the fact that you never had a
relationship with him; you were bullied as a child; sexually abused yourself; have many medical challenges,
including HIV which you have battled for over 20
years; all of those things – you are an educated man;
you were gainfully employed up until you suﬀered
those injuries.
And I do think those things mitigate and are mitigating
factors, but they don’t outweigh the aggravating factors in this case. Because of those aggravating factors, I
think there is a need for me to impose a sentence which
is speciﬁcally designed to and intended to deter future

8a

Case: 19-2522

Document: 25

Filed: 02/19/2020

Pages: 22

No. 19-2522

9

criminal conduct, conduct of this nature, of any criminal nature, and that there is a need to protect the public
from future crimes by you. There’s also a need to avoid
unwarranted sentence disparities. And sentence disparities, meaning sentences for other oﬀenders or defendants who have conducted themselves similarly. In
other words, who have engaged in similar conduct.
And the guidelines, even the statutory minimum that
applies to the solicitation of an image case, don’t really
address your speciﬁc conduct. And so I think that if I
were not to sentence with those factors in mind, that
would result in an unwarranted disparity.
And so I like I said, I have arrived at this point with
diﬃculty, but needing to be true and honest to my ultimate duty which is to make sure that I impose a sentence which is suﬃcient, but not greater that necessary,
to address the goals of sentencing and that reﬂect the
statutory factors. I have concluded that a sentence of 78
months is warranted.
And so, having considered all the information in the
Presentence Investigation Report, including guideline
computations and factors set forth at 18 U.S.C., Section
3553(a), and pursuant to the Sentencing Reform Act of
1984, it is the judgment of this Court that the defendant
David A. Bridgewater is hereby committed to the custody of the Bureau of Prisons to be imprisoned for a
term of 78 months.
The district court entered judgment in July 2019. This
timely appeal followed.

9a

Case: 19-2522

Document: 25

Filed: 02/19/2020

10

Pages: 22

No. 19-2522
II. Discussion

Bridgewater argues his sentence is substantively unreasonable considering its disparity with other sentences and the
lack of evidence that he would recidivate. He additionally
contends that the district court’s reliance on dismissed conduct violated his rights to due process and a jury trial. The
government retorts that Bridgewater waived his argument
that his sentence was disparate with others, but in any event,
his sentence was reasonable. Further, the government points
out that Supreme Court and Circuit precedent foreclose
Bridgewater’s constitutional claim. Because the parties dispute the standard of review, we begin there, before turning to
the challenge to the district court’s analysis of the statutory
sentencing factors and ending with the constitutional claim.
A. Standard of Review
The parties contest the appropriate standard we should
apply to review the substantive reasonableness of Bridgewater’s sentence. Bridgewater asserts that we should apply
abuse of discretion, while the government counters in the
main that we should not review the claim at all because
Bridgewater waived his disparity argument. We agree with
Bridgewater that he did not waive his challenge to the substantive reasonableness of his sentence, and we thus review it
for abuse of discretion.
In support of its position, the government cites United
States v. Modjewski, 783 F.3d 645, 654–55 (7th Cir. 2015) and
United States v. Garcia-Segura, 717 F.3d 566, 569 (7th Cir. 2013).
In Garcia-Segura, we “encourage[d] sentencing courts [after
imposing sentence] to inquire of defense counsel whether

10a

Case: 19-2522

No. 19-2522

Document: 25

Filed: 02/19/2020

Pages: 22

11

they are satisﬁed that the court has addressed their main arguments in mitigation. If the response is in the aﬃrmative, a
later challenge for failure to address a principal mitigation argument … would be considered waived.” 717 F.3d at 569. In
the last sentence of that very paragraph, however, we noted
that “[a]n aﬃrmative answer … would not waive an argument as to the merits or reasonableness of the court’s treatment of the issue.” Id.
Here, Bridgewater conceded in his sentencing memorandum that a 60-month mandatory minimum sentence would
not result in unwarranted disparities. At the hearing, the district court justiﬁed its 78-month sentence in part by attempting to avoid sentencing disparities. The court then asked defense counsel whether counsel was “satisﬁed that the Court
addressed your main arguments in mitigation?” Counsel responded: “Yes, your honor,” without raising any other issues.
The government views this exchange as the court speciﬁcally
inquiring whether Bridgewater had any additional unaddressed sentencing mitigation arguments.
The government’s position runs afoul of our guidance in
Garcia-Segura that a reply that the court has addressed the defense’s main mitigation arguments does not “waive an argument as to the merits or reasonableness of the court’s treatment of the issue.” 717 F.3d at 569. If there was ever any confusion, we recently clariﬁed—albeit in a nonprecedential disposition—that “[a]rguments about the ‘merits or reasonableness of the court’s treatment’ of mitigating factors are not
waived by a defendant aﬃrming that the court had addressed

11a

Case: 19-2522

12

Document: 25

Filed: 02/19/2020

Pages: 22

No. 19-2522

those factors.” United States v. Cosby, 746 F. App’x 556, 559 (7th
Cir. 2018) (quoting Garcia-Segura, 717 F.3d at 569).
On any reading of the record, that was all Bridgewater was
doing by conﬁrming the court had addressed unwarranted
sentencing disparities and the lack of evidence of his recidivism. When a defendant acknowledges that a court addressed
an argument, it means the court considered the issue. It does
not necessarily follow that the defendant agrees with how the
court resolved the matter. So, Bridgewater preserved his challenge to the reasonableness of his sentence based on the merits of the court’s disparity analysis.
This conclusion aligns with our long line of precedent that
we review the substantive reasonableness of a sentence for
abuse of discretion. See, e.g., United States v. Porraz, 943 F.3d
1099, 1104 (7th Cir. 2019). In United States v. Castro-Juarez, we
held that a defendant need not object to a sentence as unreasonable after its pronouncement to preserve appellate review.
425 F.3d 430, 433–34 (7th Cir. 2005). We reasoned that to decide otherwise “would create a trap for unwary defendants
and saddle busy district courts” with an overly formalistic
procedure. Id. Indeed, “we fail[ed] to see how requiring the
defendant to then protest the term handed down as unreasonable [would] further the sentencing process in any meaningful way.” Id. at 434.
Since Castro-Juarez, we have explained that when a defendant argues for a lower sentence and gives reasons for it,
we do not require the defendant to “object again and make
the same arguments.” Cosby, 746 F. App’x at 560 (citations
omitted); see also, e.g., United States v. Snyder, 635 F.3d 956, 962
(7th Cir. 2011) (highlighting that “we have repeatedly held
that the rules do not require a defendant to complain about a

12a

Case: 19-2522

No. 19-2522

Document: 25

Filed: 02/19/2020

Pages: 22

13

judicial choice after it has been made so long as the defendant
argued for a lower sentence before the court imposed the sentence.”). For good reason, too: it would be bordering on the
absurd to demand that a defendant have the foresight to anticipate a court’s legal conclusions and the justiﬁcations for
them. Cf. United States v. Collins, 939 F.3d 892, 897 (7th Cir.
2019) (refusing to require defendants to predict future legal
errors).
That is especially true in this case because, before the district court ruled, Bridgewater’s disparity argument was neither aggravating nor mitigating given that he requested a
Guidelines sentence. It was only after the court notiﬁed him
that it was increasing his sentence above the Guidelines range
that he would have known to disagree with the decision because now, in his view, there was an unwarranted disparity.
But by that time, the court had already assessed the issue—in
fact, the court relied on it in part as one of the grounds for the
sentence—and there was no need for Bridgewater to voice his
“exception” to a judgment already reached. United States v.
Lewis, 823 F.3d 1075, 1082 (7th Cir. 2016); see also, e.g., United
States v. Bartlett, 567 F.3d 901, 910 (7th Cir. 2009) (“[The defendant’s] sentence was the subject of extensive argument and
evidence; his lawyer did not need to argue with the judge
once the sentence had been pronounced.”).
What is more, Bridgewater’s plea agreement expressly reserved his right to appeal the substantive reasonableness of
his sentence if it exceeded “the Sentencing Guidelines as determined by the Court (or any applicable statutory minimum,
whichever is greater).” Again, before the district court imposed its sentence, Bridgewater had no reason to make a dis-

13a

Case: 19-2522

Document: 25

Filed: 02/19/2020

14

Pages: 22

No. 19-2522

parity argument as a Guidelines sentence—which he expected to receive—could not have resulted in disparity. He
therefore preserved his substantive challenge to the reasonableness of his sentence on appeal.
B. Statutory Sentencing Factors
Bridgewater chieﬂy contends that his above-Guidelines
sentence is substantively unreasonable because it creates unwarranted disparities among defendants who have similar
convictions and similar records. He also tacks on his point
that the district court erroneously reasoned that he would recidivate when it had no evidence to support that conclusion.
We disagree.
“We uphold a sentence so long as the judge oﬀers an adequate statement of his reasons consistent with the sentencing
factors enumerated in 18 U.S.C. § 3553(a).” Porraz, 943 F.3d at
1104 (citation omitted). We review the district court’s aboveGuidelines deviation—like all reasonableness challenges—
for abuse of discretion. See United States v. Pietkiewicz, 712 F.3d
1057, 1060 (7th Cir. 2013) (citation omitted). We do not presume a sentence outside the Guidelines range is unreasonable. See United States v. Henshaw, 880 F.3d 392, 396 (7th Cir.
2018). “As long as the sentencing judge gives an adequate justiﬁcation, the judge may impose a sentence above the guidelines range if he believes the range is too lenient.” United States
v. Hayden, 775 F.3d 847, 849 (7th Cir. 2014) (citations omitted).
During our inquiry, we “take into account the totality of
the circumstances, including the extent of any variance from
the Guidelines range.” Henshaw, 880 F.3d at 396 (quoting Gall
v. United States, 552 U.S. 38, 51 (2007)). Although there is no
precise formula for deciding whether the basis for exceeding

14a

Case: 19-2522

Document: 25

Filed: 02/19/2020

No. 19-2522

Pages: 22

15

the range is proportional to the sentence’s deviation from the
range, a district court must seriously consider the degree of
its deviation and explain why “an unusually lenient or an unusually harsh sentence is appropriate in a particular case with
suﬃcient justiﬁcations.” Id. (quoting Gall, 552 U.S. at 46). It
follows that a “major departure should be supported by a
more signiﬁcant justiﬁcation than a minor one.” Id. (quoting
Gall, 552 U.S. at 50).
1. Unwarranted Sentence Disparities
As Bridgewater reminds us, “in determining the particular
sentence to be imposed, [the court] shall consider … the need
to avoid unwarranted sentence disparities among defendants
with similar records who have been found guilty of similar
conduct.” 18 U.S.C. § 3553(a)(6). “But sentencing is never abstract: the district court is required by [§ 3553] to tailor its sentence to the particular defendant before it.” United States v.
Solomon, 892 F.3d 273, 279 (7th Cir. 2018); see also United States
v. Lockwood, 840 F.3d 896, 904 (7th Cir. 2016) (“In our legal tradition, each defendant is treated as a unique individual and
‘every case as a unique study in the human failings that sometimes mitigate, sometimes magnify, the crime and the punishment to ensue.’” (citation omitted)).
It makes sense, then, that the disparity provision “leaves
plenty of room for diﬀerences in sentences when warranted
under the circumstances.” United States v. Brown, 732 F.3d 781,
788 (7th Cir. 2013) (citation omitted); see also, e.g., United States
v. Boscarino, 437 F.3d 634, 638 (7th Cir. 2006) (observing that
“§ 3553(a)(6) disallows ‘unwarranted sentence disparities’ … ,
not all sentence diﬀerences.”). For instance, diﬀerences in
types of charges or other diﬀerences among defendants often
justify disparate sentences. See United States v. Scott, 631 F.3d

15a

Case: 19-2522

16

Document: 25

Filed: 02/19/2020

Pages: 22

No. 19-2522

401, 404–05 (7th Cir. 2011), as amended (Jan. 28, 2011); see also
United States v. Duncan, 479 F.3d 924, 929 (7th Cir. 2007) (“‘A
sentencing diﬀerence is not a forbidden ‘disparity’ if it is justiﬁed by legitimate considerations, such as rewards for cooperation,’ or is the result of statutory authorization.” (citations,
brackets, and emphasis omitted)). Unwarranted disparities,
however, “result when the court relies on things like alienage,
race, and sex to diﬀerentiate sentence terms.” United States v.
Gonzalez, 765 F.3d 732, 739 (7th Cir. 2014) (citation omitted).
Indeed, “[t]here is always some risk of disparities with any
sentence, whether above, below, or within the guideline
range. The key word is ‘unwarranted.’” United States v.
Castaldi, 743 F.3d 589, 597–98 (7th Cir. 2014); see also Snyder,
635 F.3d at 961 (“‘Whenever a court gives a sentence substantially different from the Guidelines’ range, it risks creating unwarranted sentencing disparities, in violation of 18 U.S.C.
§ 3553(a)(6), for most other [courts] will give sentences closer
to the norm.’” (citation omitted)); Boscarino, 437 F.3d at 638
(“Sentencing disparities are at their ebb when the Guidelines
are followed, for the ranges are themselves designed to treat
similar offenders similarly. That was the main goal of the Sentencing Reform Act. The more out-of-range sentences that
judges impose after Booker, the more disparity there will be.”).
As always, a district court must carefully consider the Guidelines range before deviating above it. But so long as the court
does this, it “necessarily gives significant weight and consideration to the need to avoid unwarranted disparities.” Lockwood, 840 F.3d at 904 (quoting Gall, 552 U.S. at 54 (brackets
omitted)).
In this case, the district court gave ample weight to the
Guidelines but ultimately concluded they failed to properly

16a

Case: 19-2522

No. 19-2522

Document: 25

Filed: 02/19/2020

Pages: 22

17

reﬂect the scope of Bridgewater’s conduct. 1 It reasoned, in
part, that were it not to deviate above the Guidelines to account for the dismissed enticement charge, the sentence
would not reﬂect the totality of the circumstances of his offense and thus would diﬀer from others like it. That is a reasonable inference after considering attempted enticement of a
minor carries with it a ten-year mandatory-minimum sentence. See 18 U.S.C. § 2422(b).
Bridgewater focuses on three cases as comparators, but
only one, United States v. Heath, is an arguable candidate. No.
18-cr-40032 (S.D. Ill. June 7, 2018). Even if Bridgewater’s offense conduct and record is like the defendant’s in that case,
such that they received disparate sentences, that does not necessarily mean that the disparity is unwarranted. See Brown,
732 F.3d at 789 (“[A] diﬀerent sentence for the same charge
does not alone raise any concern about unwarranted disparities under § 3553(a)(6).”). When the government dismisses the
conduct underlying a charge based on a plea agreement, it
may put the defendant in a diﬀerent situation from most other
1

We agree with the government that Bridgewater’s effective Guidelines range was sixty months because of the statutorily imposed mandatory minimum sentence. See U.S.S.G. 5G1.1(b) (“Where a statutorily required minimum sentence is greater than the maximum of the applicable
guideline range, the statutorily required minimum sentence shall be the
guideline sentence.”). To the extent it is relevant to measure the degree of
the district court’s deviation (from 60 months to 78 months, so an 18month or 30% increase), we use the 60-month number. Assuming for the
sake of argument that we should instead utilize the pre-mandatory minimum Guidelines range of 37–46 months to conduct our disparity analysis,
we conclude Congress authorized most of the disparity when it required
a mandatory minimum sentence of 60 months. Cf. United States v. RamirezIbarra, 182 F. App’x 591, 593 (7th Cir. 2006). A congressionally authorized
disparity cannot be “unwarranted.”

17a

Case: 19-2522

18

Document: 25

Filed: 02/19/2020

Pages: 22

No. 19-2522

defendants sentenced for their crime of conviction. See United
States v. Lucas, 670 F.3d 784, 797 (7th Cir. 2012).
In those circumstances, like the ones here, it is the parties’
plea agreement that potentially creates a disparity, not the
court. See United States v. Gill, 889 F.3d 373, 378 n.2 (7th Cir.
2018) (citing Scott, 631 F.3d at 404–06, for the proposition that
when the government decides to dismiss some charges for
some defendants but none for others, it does not create a sentence disparity for the court to consider). Consequently, if
some courts refuse to account for dismissed conduct in sentencing—unlike the court here—that does not mean the disparities are unwarranted. See United States v. Horne, 474 F.3d
1004, 1007 (7th Cir. 2007).
To hold otherwise would mean that all sentences would
have to model the ones that do not consider dismissed conduct, and the courts that imposed them would control sentencing nationwide. See id. Such a result runs contrary to the
purposes and goals of sentencing in the advisory Guidelines
regime. Federal law authorizes a court to raise (or reduce) one
defendant’s sentence based on another’s lenient (or harsh)
sentence “not because of § 3553(a)(6), but despite it.” United
States v. Prado, 743 F.3d 248, 252 (7th Cir. 2014) (quoting Bartlett, 567 F.3d at 908); see also United States v. Blagojevich, 854
F.3d 918, 921 (7th Cir. 2017) (explicating that a court “is never
compelled by § 3553(a)(6) in order to avoid unwarranted disparities”).
Our concern with the risk of unwarranted disparities
would be greater if the district court’s sentence approached
the statutory maximum imprisonment term (here, twenty
years). See United States v. Kirkpatrick, 589 F.3d 414, 415 (7th
Cir. 2009). In that situation, for example, it may be “wise [for

18a

Case: 19-2522

Document: 25

No. 19-2522

Filed: 02/19/2020

Pages: 22

19

the district court] to see how much incremental punishment
the Sentencing Commission recommends.” Id. at 416. That
said, we have only suggested as much when it comes to an
unusually high sentence on account of an additional crime
that is already factored into the Guidelines range. See United
States v. Hallahan, 756 F.3d 962, 981 (7th Cir. 2014); see also
United States v. Woods, 375 F. App’x 600, 602 (7th Cir. 2010)
(clarifying it is a recommendation, not a requirement).
Here, by contrast, the Guidelines did not contemplate this
conduct completely, and the amount of the deviation is not so
great that the district court had a corresponding heightened
duty to tie its sentence to the Guidelines more than it already
did. See United States v. Faulkner, 885 F.3d 488, 499–500 (7th
Cir. 2018), reh’g denied (Apr. 11, 2018), cert. denied sub nom.,
Sykes v. United States, 139 S. Ct. 260, (2018), and cert. denied, 139
S. Ct. 388 (2018) (ﬁnding an 18% deviation substantively reasonable based on aﬃrmances of sentences with 50, 35, and
50% deviations above the applicable Guidelines ranges); see
also United States v. Alvarado, 480 F. App’x 852, 855 (7th Cir.
2012) (calling an 11-to-17 month diﬀerence between a 7-to-13
month Guidelines range and a 24-month imprisonment term
“minor”). The court’s 18-month (or 30%) deviation in this case
did not introduce unwarranted sentence disparities among
similar defendants.
2. Recidivism
As to recidivism, we note that the district court never speciﬁcally mentioned it or that Bridgewater himself was prone
to commit crimes again. Maybe Bridgewater is thinking of the
court’s statement that it was imposing an above-Guidelines
sentence in part “to deter future criminal conduct, conduct of
this nature, of any criminal nature, and that there is a need to

19a

Case: 19-2522

20

Document: 25

Filed: 02/19/2020

Pages: 22

No. 19-2522

protect the public from future crimes by you.” Although speciﬁc deterrence and the likelihood of recidivism are typically
related, we have referred to them as independent reasons for
an upward deviation. See United States v. Johns, 732 F.3d 736,
742 (7th Cir. 2013); see also United States v. Huﬀstatler, 571 F.3d
620, 624 (7th Cir. 2009).
More importantly, the district court described on the record and at length the facts and circumstances of Bridgewater’s
case, with emphasis on the severity of the dismissed conduct.
The court explained in considerable detail why the dismissed
conduct aggravated Bridgewater’s oﬀense and hence warranted his above-Guidelines sentence. We require nothing
more. See, e.g., United States v. Jordan, 435 F.3d 693, 698 (7th
Cir. 2006) (concluding that the district court adequately explained its sentence by suﬃciently linking it to the § 3553(a)
factors). Bridgewater’s history and characteristics—when
combined with the nature and circumstances of his oﬀense—
made it entirely reasonable for the district court to fashion its
sentence to quash any residual impulse or desire to recidivate.
Cf. United States v. Beier, 490 F.3d 572, 574 (7th Cir. 2007) (“The
more diﬃcult it is for a person to resist a desire for sexual contact with children, the more likely he is to recidivate, and this
is an argument for a longer prison sentence.”).
C. Constitutionality of Considering Dismissed Conduct
Moving to the merits of the constitutional claim, Bridgewater maintains that the district court’s reliance on dismissed
conduct to increase his sentence violates his rights to due process and a jury trial. He recognizes, however, that Supreme
Court and Circuit precedent squarely foreclose this argument.
See United States v. Watts, 519 U.S. 148, 157 (1997); see also
United States v. Holton, 873 F.3d 589, 591–92 (7th Cir. 2017) (per

20a

Case: 19-2522

No. 19-2522

Document: 25

Filed: 02/19/2020

Pages: 22

21

curiam); Lucas, 670 F.3d at 790 (“A district court may consider
a wide range of conduct at sentencing, including acquitted
conduct and dismissed oﬀenses.”). Usually, we would just
leave it at that. But because this issue was the premise for
Bridgewater’s statutory arguments, we add two observations
in closing.
First, it is not just judicial opinions that preclude Bridgewater’s constitutional claim; Congress and the Sentencing
Commission compelled our view. See 18 U.S.C. § 3661 (“No
limitation shall be placed on the information concerning the
background, character, and conduct of a person convicted of
an oﬀense which a court of the United States may receive and
consider for the purpose of imposing an appropriate sentence.”); U.S.S.G. 5K2.21 (“The court may depart upward to
reﬂect the actual seriousness of the oﬀense based on conduct
(1) underlying a charge dismissed as part of a plea agreement
in the case, or underlying a potential charge not pursued in
the case as part of a plea agreement or for any other reason;
and (2) that did not enter into the determination of the applicable guideline range.”).
Second, and as explained above, we have aﬃrmed aboveGuidelines sentences after determining it was substantively
reasonable to weigh dismissed conduct in sentencing decisions. See United States v. Weathers, 744 F. App’x 947, 948–49
(7th Cir. 2018) (collecting cases involving sentences that were
30, 33, and 75 months above the respective Guidelines
ranges); see also United States v. Mays, 593 F.3d 603, 609–10 (7th
Cir. 2010). Sometimes, the Guidelines just do not quite capture the nature of a defendant’s crimes or the wide range of a
defendant’s conduct. See United States v. Mejia, 859 F.3d 475,

21a

Case: 19-2522

Document: 25

Filed: 02/19/2020

22

Pages: 22

No. 19-2522

478–79 (7th Cir. 2017); see also United States v. Gill, 824 F.3d 653,
665–66 (7th Cir. 2016).
Similarly, Bridgewater did not simply solicit an obscene
picture of a minor, which is all that his conviction required.
He did much more than that: he attempted to entice that minor to meet with him in person for sex. The court’s sentence
appropriately reﬂects that conduct. After all, we want district
courts to particularize their sentences to oﬀenders and their
oﬀenses. That, in turn, means sentences must account for exacerbating circumstances when the Guidelines do not. See
United States v. Henzel, 668 F.3d 972, 978 (7th Cir. 2012). For
that reason, district courts must often address dismissed conduct to adequately consider the “seriousness of the oﬀense”
under 18 U.S.C. § 3553(a)(2). See Lucas, 670 F.3d at 797. This
case ﬁts that mold.
III. Conclusion
For the reasons given, we AFFIRM Bridgewater’s sentence
as substantively reasonable.

22a

Case 4:19-cr-40012-SMY Document 44 Filed 07/29/19 Page 1 of 8 Page ID #253
AO 245B (SOIL Rev. 04/16) Judgment in a Criminal Case

UNITED STATES DISTRICT COURT
Southern District of Illinois
UNITED STATES OF AMERICA

v.
DAVIDA. BRIDGEWATER

)
)
)
)
)
)
)
)

JUDGMENT IN A CRIMINAL CASE
Case Number: 4:19-CR-40012-SMY
USM Number: 14284-025

MELISSA A. DAY
Defendant's Attorney

THE DEFENDANT:
~

pleaded guilty to count(s) 2 of the Indictment

D

pleaded nolo contendere to count(s)
which was accepted by the court.

D

was found guilty on count(s)
after a plea of not guilty.

The defendant is adjudicated guilty of these offenses:
Title & Section

18 u.s.c. §
2252A(a)(3)(B), 18 U.S.C.
§ 2252A(b)( 1)

Nature of Offense

Offense Ended

Soliciting an Obscene Visual Depiction of a Minor

1/17/2019

Count

2

The defendant is sentenced as provided in pages 2 through 8 of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984.

•

The defendant has been found not guilty on count(s)

181

Count(s) 1 181is

D

No fine

D

Forfeiture pursuant to Order of the Court. See page for specific property details.

•

•

are dismissed on the motion of the United States.

Forfeiture pursuant to order filed , included herein.

It is ordered that the defendant shall notify the United States attorney for this district within 30 days of
any change of name, residence, or mailing address until all fines, restitution, costs, and special assessments
imposed by this judgment are fully paid. If ordered to pay restitution, the defendant shall notify the court and
United States attorney of any material change in the defendant's economic circumstances.

Restitution and/or fees may be paid to:
Clerk, U.S. District Court*
750 Missouri Ave.
East St. Louis, IL 6220 I
*Checks payable to: Clerk, U.S. District Court

July 23, 2019
Date of Imposition of Judgment

S'ignature of Judge
Staci M. Yandle Unite tates District Jud e
Name and Title offdge /

Date Signed: )

ff}-0({).<J / o/

I

t

23a

Case 4:19-cr-40012-SMY Document 44 Filed 07/29/19 Page 2 of 8 Page ID #254
AO 2458 (SOIL Rev. 04/16) Judgment in a Criminal Case
Judgment Page 2 of8

DEFENDANT: DAVID A. BRIDGEWATER
CASE NUMBER: 4: 19-CR-40012-SMY

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be
imprisoned for a total term of: 78 months
18:1

The court makes the following recommendations to the Bureau of Prisons: The Court recommends
placement at the Medical Center in Springfield.

~

The defendant is remanded to the custody of the United States Marshal.
The defendant shall surrender to the United States Marshal for this district:
at _ _ _ _ _ _ _ _ Da.m.
p.m. on

•

•

•
•

•

as notified by the United States Marshal.

The defendant shall surrender for service of sentence at the institution designated by the Bureau of
Prisons:
before 2 p.m. on
as notified by the United States Marshal.
as notified by the Probation or Pretrial Services Office.

•
•
•

RETURN
I have executed this judgment as follows:
Defendant delivered on _ _ _ _ _ _ _ to _ _ _ _ _ _ _ _ _ _ _ _ _ __
at _ _ _ _ _ _ _ _ _ __, with a certified copy of this judgment

UNITED STATES MARSHAL

B
y--------------DEPUTY UNITED STATES MARSHAL

024a
24a

Case 4:19-cr-40012-SMY Document 44 Filed 07/29/19 Page 3 of 8 Page ID #255
AO 245B (SDIL Rev. 04/16) Judgment in a Criminal Case
Judgment Page 3 of 8

DEFENDANT: DAVID A. BRIDGEWATER
CASE NUMBER: 4: 19-CR-40012-SMY

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of: 7 years
Other than exceptions noted on the record at sentencing, the Court adopts the presentence report in its
current form, including the suggested terms and conditions of supervised release and the explanations
and justifications therefor.

MANDATORY CONDITIONS
The following conditions are authorized pursuant to 18 U.S. C. § 3583 (d):
The defendant shall not commit another federal, state or local crime.
The defendant shall not unlawfully possess a controlled substance.
The defendant shall refrain from any unlawful use of a controlled substance. The defendant shall submit
to one drug test within 15 days of release from imprisonment and at least two periodic drug tests
thereafter, as determined by the Court, not to exceed 52 tests in one year.
The defendant shall cooperate in the collection of DNA as directed by the probation officer.
The defendant must comply with the requirements of the Sex Offender Registration and Notification Act
(34 U.S.C. § 20901, et seq.) as directed by the probation officer, the Bureau of Prisons, or any state sex
offender registration agency in the location where the defendant resides, works, is a student, or was
convicted of a qualifying offense.

ADMINISTRATIVE CONDITIONS
The following conditions of supervised release are administrative and applicable whenever supervised
release is imposed, regardless of the substantive conditions that may also be imposed These conditions
are basic requirements essential to supervised release.
The defendant must report to the probation office in the district to which the defendant is released within
seventy-two hours of release from the custody of the Bureau of Prisons.
The defendant shall not knowingly possess a firearm, ammunition, or destructive device. The defendant
shall not knowingly possess a dangerous weapon unless approved by the Court.
The defendant shall not knowingly leave the judicial district without the permission of the Court or the
probation officer.
The defendant shall report to the probation officer in a reasonable manner and frequency directed by the
Court or probation officer.
The defendant shall respond to all inquiries of the probation officer and follow all reasonable
instructions of the probation officer.
025a
25a

Case 4:19-cr-40012-SMY Document 44 Filed 07/29/19 Page 4 of 8 Page ID #256
AO 24S8 (SOIL Rev. 04/16) Judgment in a Criminal Case
Judgment Page 4 of8

DEFENDANT: DAVID A. BRIDGEWATER
CASE NUMBER: 4: l 9-CR-40012-SMY

The defendant shall notify the probation officer prior to an expected change, or within seventy-two
hours after an unexpected change, in residence or employment.
The defendant shall not knowingly meet, communicate, or otherwise interact with a person whom the
defendant knows to be engaged, or planning to be engaged, in criminal activity.
The defendant shall permit a probation officer to visit the defendant at a reasonable time at home or at
any other reasonable location and shall permit confiscation of any contraband observed in plain view of
the probation officer.
The defendant shall notify the probation officer within seventy-two hours of being arrested or
questioned by a law enforcement officer.

SPECIAL CONDITIONS
Pursuant to the factors in 18 US.C. § 3553(a) and 18 U.S.C. § 3583(d), the following special conditions
are ordered While the Court imposes special conditions, pursuant to 18 USC. § 3603(10), the
probation officer shall perform any other duty that the Court may designate. The Court directs the
probation officer to administer, monitor, and use all suitable methods consistent with the conditions
specified by the Court and 18 U.S.C. § 3603 to aid persons on probation/supervised release. Although
the probation officer administers the special conditions, final authority over all conditions rests with the
Court.

The defendant shall participate in treatment for narcotic addiction, drug dependence, or alcohol
dependence, which includes urinalysis and/or other drug detection measures, and which may require
residence and/or participation in a residential treatment facility, or residential reentry center (halfway
house). The number of drug tests shall not exceed 52 tests in a one-year period. Any participation will
require complete abstinence from all alcoholic beverages and any other substances for the purpose of
intoxication. The defendant shall pay for the costs associated with services rendered, based on a Court
approved sliding fee scale and the defendant's ability to pay. The defendant's financial obligation shall
never exceed the total cost of services rendered. The Court directs the probation officer to approve the
treatment provider and, in consultation with a licensed practitioner, the frequency and duration of
counseling sessions, and the duration of treatment, as well as monitor the defendant's participation, and
assist in the collection of the defendant's copayment.
The defendant shall participate in mental health services, which may include a mental health assessment
and/or psychiatric evaluation and shall comply with any treatment recommended by the treatment
provider. This may require participation in a medication regimen prescribed by a licensed practitioner.
The defendant shall pay for the costs associated with services rendered, based on a Court approved
sliding fee scale and the defendant's ability to pay. The defendant's financial obligation shall never
exceed the total cost of services rendered. The Court directs the probation officer to approve the
treatment provider and, in consultation with a licensed practitioner, the frequency and duration of
counseling sessions, and duration of treatment, as well as monitor the defendant's participation, and
assist in the collection of the defendant's copayment.
While any financial penalties are outstanding, the defendant shall provide the probation officer and the
026a
26a

Case 4:19-cr-40012-SMY Document 44 Filed 07/29/19 Page 5 of 8 Page ID #257
AO 2458 (SOIL Rev. 04/16) Judgment in a Criminal Case
Judgment Page 5 of8

DEFENDANT: DAVID A. BRIDGEWATER
CASE NUMBER: 4:19-CR-40012-SMY

Financial Litigation Unit of the United States Attorney's Office any requested financial information. The
defendant is advised that the probation office may share financial information with the Financial
Litigation Unit.
While any financial penalties are outstanding, the defendant shall apply some or all monies received, to
be determined by the Court, from income tax refunds, lottery winnings, judgments, and/or any other
anticipated or unexpected financial gains to any outstanding court-ordered financial obligation. The
defendant shall notify the probation officer within 72 hours of the receipt of any indicated monies.
The defendant shall pay any financial penalties imposed which are due and payable immediately. If the
defendant is unable to pay them immediately, any amount remaining unpaid when supervised release
commences will become a condition of supervised release and be paid in accordance with the Schedule
of Payments sheet of the judgment based on the defendant's ability to pay.
The defendant's person, residence, real property, place of business, vehicle, and any other property under
the defendant's control is subject to search, by any United States Probation Officer and other such law
enforcement personnel as the probation officer may deem advisable and at the direction of the United
States Probation Officer, at a reasonable time and in a reasonable manner, based upon reasonable
suspicion of contraband or evidence of a violation of a condition of release, without a warrant. Failure to
submit to such a search may be grounds for revocation. The defendant shall inform any other residents
that the premises and other property under the defendant's control may be subject to a search pursuant to
this condition.
The defendant shall cooperate with the U.S. Probation/Pretrial Services Office Computer and Internet
Monitoring Program. Cooperation shall include, but is not limited to, identifying computer systems,
internet capable devices, networks (routers/modems), and/or similar electronic devices (external hard
drives, flash drives, etc.) to which the Defendant has access. All devices are subject to random
inspection/search, configuration, and the installation of monitoring software and/or hardware. The
defendant's financial obligation shall never exceed the total cost of services rendered. The defendant
shall pay all or a portion of the costs of participation in the Computer and Internet Monitoring Program
based on the defendant's ability to pay.
The defendant shall inform all parties who access approved computer(s) or similar electronic device(s)
that the device(s) is subject to search and monitoring. The defendant may be limited to possessing only
one personal computer and/or internet capable device to facilitate the ability to effectively monitor
internet-related activities.
The defendant shall report any and all electronic communication service accounts utilized for user
communications, dissemination, and/or storage of digital media files (i.e., audio, video, images,
documents, device backups) to the U.S. Probation/Pretrial Services Office. This includes, but is not
limited to, email accounts, social media accounts, and cloud storage accounts. The defendant shall
provide each account identifier and password and shall report the creation of new accounts. Changes in
identifiers and/or passwords, transfer, suspension and/or deletion of any account shall be reported within
five days of such action. The defendant shall permit the U.S. Probation/Pretrial Services Office to access
and search any account(s).
The defendant shall submit to a sex offender assessment and if recommended in the assessment, comply
027a
27a

Case 4:19-cr-40012-SMY Document 44 Filed 07/29/19 Page 6 of 8 Page ID #258
AO 245B (SOIL Rev. 04/16) Judgment in a Criminal Case
Judgment Page 6 of8

DEFENDANT: DAVID A. BRIDGEWATER
CASE NUMBER: 4: 19-CR-40012-SMY

with sex offender-specific treatment. The defendant shall pay for the costs associated with services
rendered, based on a Court approved sliding fee scale and the defendant's ability to pay. The defendant's
financial obligation shall never exceed the total cost of services rendered. The Court directs the
probation officer to approve the treatment provider and, in consultation with a licensed practitioner, the
frequency and duration of counseling sessions, and the duration of treatment, as well as monitor the
defendant's participation, and assist in the collection of the defendant's copayment.
The defendant shall participate in an approved sexual offender treatment program. If deemed necessary,
the defendant shall submit to an approved, sexual-predator evaluation. The defendant shall abide by all
rules, requirements, and conditions of the treatment program, including submission to polygraph
examination to determine compliance with the conditions of supervision. The defendant shall remain in
the program until successfully completed, or until such time as the defendant is released from the
program by the Court and/or probation officer. The defendant shall pay for the costs associated with
services rendered, based on a Court-approved sliding fee scale and the defendant's ability to pay. The
defendant's financial obligation shall never exceed the total cost of services rendered. The Court directs
the probation officer to approve the treatment provider and, in consultation with a licensed practitioner,
the frequency and duration of counseling sessions, and the duration of treatment, as well as monitor the
defendant's participation, and assist in the collection of the defendant's copayment.
The defendant is prohibited from activity in social media sites, internet chat rooms, and internet forums
unless approved by the Court or probation officer.
The defendant shall not have any contact with persons under the age of 18 of the same gender as the
victim(s) of the offense or prior offense(s), unless in the presence of a responsible adult who is aware of
the nature of the defendant's background and instant offense and who has been approved by the Court or
probation officer. Exceptions include unintentional contact while at place of employment, traveling, or
during family gatherings.
If successfully terminated from sex offender counseling prior to expiration of supervised release, the
defendant shall submit to polygraph examinations, not to exceed three in a one-year period, as directed
by the probation officer.
U.S. Probation Office Use Only

A U.S. Probation Officer has read and explained the conditions ordered by the Court and has provided me with a complete
copy of this Judgment. Further information regarding the conditions imposed by the Court can be obtained from the
probation officer upon request.
Upon a finding of a violation of a condition(s) of probation or supervised release, I understand that the court may (I) revoke
supervision, (2) extend the term of supervision, and/or (3) modify the conditions of supervision.

Defendant's Signature _ _ _ _ _ _ _ _ _ _ _ _ _ __

Date

----------

U.S. Probation Officer _ _ _ _ _ _ _ _ _ _ _ _ _ __

Date

----------

028a
28a

Case 4:19-cr-40012-SMY Document 44 Filed 07/29/19 Page 7 of 8 Page ID #259
AO 2458 (SOIL Rev. 04/16) Judgment in a Criminal Case
Judgment Page 7 of 8

DEFENDANT: DAVID A. BRIDGEWATER
CASE NUMBER: 4:19-CR-40012-SMY

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on
Sheet 8.
Assessment
TOTALS

•
•

$100

JVT A Assessment*

Fine

Restitution

Waived

$150

NIA

The determination of restitution is deferred until _ _. An Amended Judgment in a Criminal Case
(AO 245C) will be entered after such determination.
The defendant must make restitution (including community restitution) to the following payees in
the amount listed below.

If the defendant makes a partial payment, each payee shall receive an approximately
proportioned payment, unless specified otherwise in the priority order or percentage payment column
below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal victims must be paid before the United
States is paid.
Total Loss**

Name of Payee

•
•

Restitution Ordered

Priority or
Percentage

Restitution amount ordered pursuant to plea agreement $_ _ _ _ _ _ __
The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution
or fine is paid in full before the fifteenth day after the date of judgment, pursuant to 18 U.S.C. §
3612(f). All of the payment options on Sheet 8 may be subject to penalties for delinquency and
default, pursuant to 18 U.S.C. § 3612(g).
The court determined that the defendant does not have the ability to pay interest and it is ordered
that:
the interest requirement is waived for fine
restitution.
the interest requirement for fine
restitution is modified as follows:

•
•

•

•
•

•

* Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22.

* Findings for the total amount oflosses are required under Chapters 109A, 110, l lOA, and I 13A of Title 18 for offenses committed on or
after September 13, 1994, but before April 23, 1996.

029a
29a

Case 4:19-cr-40012-SMY Document 44 Filed 07/29/19 Page 8 of 8 Page ID #260
AO 2458 (SOIL Rev. 04/16) Judgment in a Criminal Case
Judgment Page 8 of8

DEFENDANT: DAVID A. BRIDGEWATER
CASE NUMBER: 4:19-CR-40012-SMY

SCHEDULE OF PAYMENTS
Having assessed the defendant's ability to pay, payment of the total criminal monetary penalties is due as
follows:
A. D Lump sum payment of$_ _ _ _ due immediately, balance due
not later than
or
in accordance C,
D,
E, or F below; or
B. IZI Payment to begin immediately (may be combined with C,
D, or IZI F below; or
C.
Payment in equal ___ (e.g., weekly, monthly, quarterly) installments of$_ _ _ over a
period of _ _ (e.g., months or years), to commence _ _ _ (e.g., 30 or 60 days) after the date
of this judgment; or
D.
Payment in equal _ _ _ (e.g., weekly, monthly, quarterly) installments of$_ _ _ _ over a
period of_ _ _ _ (e.g., months or years), to commence _ _ _ _ _ (e.g., 30 or 60 days) after
release from imprisonment to a term of supervision; or
E.
Payment during the term of supervised release will commence within _ _ _ _ (e.g., 30 or 60
days) after release from imprisonment. The court will set the payment plan based on an assessment
of the defendant's ability to pay at that time; or
F. IZI Special instructions regarding the payment of criminal monetary penalties:

•
•

------• • •
•

•

•

•

•

•

All criminal monetary penalties are due immediately and payable through the Clerk, U.S. District
Court. Having assessed the defendant's ability to pay, payment of the total criminal monetary
penalties shall be paid in equal monthly installments of $20 or ten percent of his net monthly
income, whichever is greater. The defendant shall pay any financial penalty that is imposed by this
judgment and that remains unpaid at the commencement of the term of supervised release.

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of
criminal monetary penalties is due during imprisonment. All criminal monetary penalties, except those
payments made through the Federal Bureau of Prisons' Inmate Financial Responsibility Program, are
made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary
penalties imposed.

•

•
•
•

Joint and Several
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total
Amount, Joint and Several Amount, and corresponding payee, if appropriate.
The defendant shall pay the cost of prosecution.
The defendant shall pay the following court cost(s):
The defendant shall forfeit the defendant's interest in the following property to the United States:

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine
principal, (5) fine interest, (6) community restitution, (7) penalties, and (8) costs, including cost of prosecution and court
costs.

030a
30a

